(l
~5lr
          DEPARTMENT OF HEALTH & HUMAN SERVICES



                                               JUN 1 7 2009
                                                                                OFFICE OF INSPECTOR GENERAL

                                                                                 Offce of Audit Service, Region III
                                                                                 Public Leer Building, Suite 316
                                                                                 150 S. Independence Mall West
                                                                                 Philadelphia, PA 19106-3499



       Report Number: A-03-08-00013

       Mr. James A. Honchar, SPHR
       Deputy Secretar for Human Resources and Management
       Governor's Office of Administration
       613 Nort Street
       Finance Building, Room 517
       Harsburg, Pennsylvania 17120


       Dear Mr. Honchar:

       Enclosed is the u.S. Deparent of Health and Human Services (HHS), Office of Inspector
       General (OIG), final report entitled "Review of Retiree Drug Subsidy Plan Sponsor
       Commonwealth of 
   Pennsylvana for Plan Year Ended December 31,2006." We wil forward a
       copy of ths report to the HHS action official noted on the following page for review and any
       action deemed necessary.

       The HHS action official wil make final detennnation as to actions taken on all matters reported.
       We request that you respond to ths official withn 30 days from the date of ths letter. Your
       response should present any comments or additional information that you believe may have a
       bearng on the final detennnation.

       Pursuant to the Freedom of Information Act, 5 U.S.c. § 552, OIG reports generally are made
       available to the public to the extent that information in the report is not subject to exemptions in
       the Act. Accordingly, this report wil be posted on the Internet at http://oig.hhs.gov~

       If you have any questions or comments about ths report, please do not hesitate to call me, at
       (215) 861-4470, or contact Nicole Freda, Audit Manager, at (215) 861-4497 or through e-mail at
       Nicole.FredaCloig.hhs.gov. Please refer to report number A-03-08-00013 in all correspondence.

                                                      Sincerely,


                                                    .ÁtL ~
                                                      Stephen Virbitsky
                                                      Regional Inspector General
                                                        for Audit Services


       Enclosure
Page 2 - Mr. James A. Honchar, SPHR

Direct Reply to HHS Action Offcial:

Ms. Nanette Foster Reily, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Center for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    REVIEW OF RETIREE

DRUG SUBSIDY PLAN SPONSOR 

    COMMONWEALTH OF 

PENNSYLVANIA FOR PLAN YEAR 

 ENDED DECEMBER 31, 2006 





                    Daniel R. Levinson

                     Inspector General 


                        June 2009 

                      A-03-08-00013

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY


BACKGROUND

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug program. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage. In addition, Section 101
of the MMA established the Retiree Drug Subsidy (RDS) program.

The Centers for Medicare & Medicaid Services (CMS) is responsible for administering the
program. CMS makes subsidy payments to sponsors (employers and unions) of qualified retiree
prescription drug plans for qualifying retirees covered under the plans. A qualifying covered
retiree is a Medicare Part D eligible individual who is not enrolled in a Part D plan but who is
covered by a qualified retiree prescription drug plan. The subsidy payments for each qualifying
covered retiree generally equal 28 percent of allowable retiree drug costs.

Medicare requires that the sponsor of a qualified retiree prescription drug plan submit an RDS
application to CMS each year. The application must include identifying information for the plan
sponsor, an actuarial attestation that the actuarial value of the retiree prescription drug coverage
under the plan is at least equal to the actuarial value of the defined standard prescription drug
benefit under Medicare Part D, a list of qualifying covered retirees and identifying information,
and a sponsor agreement signed by an authorized representative of the plan sponsor.

The Commonwealth of Pennsylvania (Pennsylvania) offers prescription drug coverage to its
retired employees through its Retired Employees Health Program (REHP). The REHP is
administered by the Pennsylvania Employees Benefit Trust Fund (PEBTF). PEBTF uses an
outside vendor to report prescription drug costs to CMS. For plan year 2006, Pennsylvania
received $29,953,907 in subsidy payments based on reported gross retiree drug costs of
approximately $154.9 million and allowable retiree costs of approximately $107 million.

OBJECTIVES

Our objectives were to determine whether Pennsylvania (1) met the plan sponsor requirements,
(2) established controls to ensure that drug costs were correctly reported, and (3) established
administrative safeguards over retiree data included in the RDS secure Web site.

SUMMARY OF FINDINGS

Pennsylvania’s REHP met the requirements to be considered a qualified retiree prescription drug
plan and Pennsylvania established controls to ensure that drug subsidy costs were correctly
reported.

                                                i
However, Pennsylvania did not establish adequate administrative safeguards over retiree data.
Specifically, Pennsylvania did not terminate a former employee’s access to RDS information.
As a result, the confidentiality, integrity, and availability of electronic protected health
information could be diminished. Pennsylvania’s lack of administrative safeguards was due to a
lack of adequate internal controls over protected health information.

RECOMMENDATION

We recommend that Pennsylvania follow the regulations to ensure that only eligible employees
have access to the RDS secure Web site.

COMMONWEALTH OF PENNSYLVANIA COMMENTS

In its comments on our draft report, Pennsylvania concurred with our recommendation and
outlined the steps it had taken to implement our recommendation. Pennsylvania’s comments are
included in their entirety as the Appendix.




                                            ii
                                                TABLE OF CONTENTS 

                                                                                                                                 Page

INTRODUCTION

        BACKGROUND .............................................................................................................1 

          Retiree Drug Subsidy.................................................................................................1     

          Plan Sponsor Requirements .......................................................................................1 

          Qualifying Covered Retirees......................................................................................1         

          Retiree Drug Costs.....................................................................................................2 

          Retiree Drug Subsidy Secure Web Site .....................................................................2 

          Commonwealth of Pennsylvania ...............................................................................2 


        OBJECTIVES, SCOPE, AND METHODOLOGY.........................................................3

          Objectives ..................................................................................................................3 

          Scope..........................................................................................................................3 

          Methodology ..............................................................................................................4        


FINDINGS AND RECOMMENDATION...............................................................................5


        PLAN SPONSOR REQUIREMENTS ............................................................................5 

          Federal Requirements ................................................................................................5             

          Results of Review of Plan Sponsor Requirements ....................................................6 


        SAFEGUARDING RETIREE DATA.............................................................................6 

          Data Security Requirements ......................................................................................6 

          Results of Review of Administrative Safeguards Over Retiree Data ........................6 

          Effect on Electronic Protected Health Information ...................................................6 


        RECOMMENDATION ...................................................................................................7 


        COMMONWEALTH OF PENNSYLVANIA COMMENTS.........................................7 


APPENDIX

        COMMONWEALTH OF PENNSYLVANIA COMMENTS




                                                               iii
                                              INTRODUCTION


BACKGROUND

Retiree Drug Subsidy

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug program. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage. In addition, Section 101
of the MMA established the Retiree Drug Subsidy (RDS) program.

The Centers for Medicare & Medicaid Services (CMS) is responsible for administering the
program. Under the program, CMS makes subsidy payments to sponsors (employers and
unions) of qualified retiree prescription drug plans for each qualifying retiree covered under the
plan. A qualifying covered retiree is a Medicare Part D eligible individual who is not enrolled in
a Part D plan but who is covered by a qualified retiree prescription drug plan.

The subsidy payments for each qualifying covered retiree generally equal 28 percent of
allowable retiree drug costs. Allowable retiree drug costs are based on gross retiree costs
between a cost threshold and a cost limit, 1 minus any price concessions such as discounts or
rebates.

Plan Sponsor Requirements

Medicare requires that the sponsor of a qualified retiree prescription drug plan submit an RDS
application to CMS each year. Pursuant to 42 CFR § 423.884(c), the application must include
identifying information for the plan sponsor, an actuarial attestation that the actuarial value of the
retiree prescription drug coverage under the plan is at least equal to the actuarial value of the
defined standard prescription drug benefit under Medicare Part D, a list of qualifying covered
retirees and identifying information, and a sponsor agreement signed by an authorized
representative of the plan sponsor.

Qualifying Covered Retirees

As part of the application process, 42 CFR § 423.884(c) requires that plan sponsors must submit
a list of qualifying covered retirees. The submitted list must include retiree identification
information, as well as the plan sponsor’s coverage effective and termination dates. 2 To process

1
 The cost threshold and cost limit are determined by CMS. For plan year 2006 the individual qualifying retiree cost
threshold was $250 and the cost limit was $5,000.
2
 The plan sponsor’s coverage effective and termination dates represent the dates that the plan sponsor provided the
retiree with coverage under the qualified retiree prescription drug plan.
                                                       1

a retiree file, CMS queries the Medicare Beneficiary Database and determines whether each
individual is a qualifying covered retiree eligible for the subsidy based on Medicare entitlement.
CMS then determines the periods of time during the plan year when the retiree is eligible for the
subsidy. CMS includes the subsidy effective and termination dates in the retiree response file
that it returns to the plan sponsor.

CMS recommends that plan sponsors submit updated retiree files periodically to reflect (1) new
retirees not previously reported, (2) updates to previously accepted retiree records, (3) deletions
for previously accepted retiree records, and (4) resubmissions. Each time a plan sponsor submits
an updated retiree file, CMS prepares a response file. CMS also sends plan sponsors a
notification file when an event occurs—such as a retiree’s death or enrollment in Medicare Part
D—that may affect a plan sponsor’s ability to receive the subsidy for a retiree.

Retiree Drug Costs

Plan sponsors, or their vendors, must accumulate retiree drug costs and prepare and submit cost
reports to CMS before requesting subsidy payments. Plan sponsors can elect to receive interim
subsidy payments based on costs reported to date. A plan sponsor receiving interim payments is
required to reconcile interim subsidy payments within 15 months after the end of its plan year.
CMS will make any necessary adjustments to interim payments for the plan year when the
reconciliation is completed.

Because plan sponsors submit retiree costs to CMS on an aggregate (rather than an individual
retiree) basis, plan sponsors must carefully manage retiree response and notification files to
ensure that costs are accumulated only for qualifying covered retirees during valid subsidy
periods.

Retiree Drug Subsidy Secure Web Site

CMS, through its contractor ViPS, Inc., created the RDS secure Web site as a secure portal for
plan sponsors participating in the subsidy program to submit RDS applications and requests for
payment. Plan sponsor personnel requiring access to the secure Web site are assigned roles,
including authorized representative, account manager, actuary, and designee. The authorized
representative or account manager can assign designees various duties including completing
portions of the RDS application, submitting retiree data, and requesting subsidy payments.

Commonwealth of Pennsylvania

The Commonwealth of Pennsylvania (Pennsylvania) offers prescription drug coverage to its
retired employees through its Retired Employees Health Program (REHP). The REHP is
administered by the Pennsylvania Employees Benefit Trust Fund (PEBTF). PEBTF administers



                                               2

health care benefits, including prescription drug benefits, to eligible Commonwealth employees,
retirees, and their dependents. PEBTF uses an outside vendor to report prescription drug costs to
CMS.

Using information from the REHP’s eligibility files, PEBTF manages Pennsylvania’s list of the
RDS-eligible retirees. PEBTF’s outside vendor is responsible for accumulating retiree drug
costs and for preparing and submitting the cost reports to CMS on Pennsylvania’s behalf. For
plan year 2006, Pennsylvania received $29,953,907 in subsidy payments based on 53,104
eligible retirees with reported gross retiree drug costs of approximately $154.9 million and
allowable retiree costs of approximately $107 million. Pennsylvania reconciled its plan year
2006 subsidy payments on June 24, 2008.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether Pennsylvania (1) met the plan sponsor requirements,
(2) established controls to ensure that drug costs were correctly reported, and (3) established
administrative safeguards over retiree data included in the RDS secure Web site.

Scope

We reviewed Pennsylvania’s plan year 2006 RDS application, retiree files, and final cost report.
Our review was limited to determining whether Pennsylvania correctly reported drug costs for
qualifying covered retirees and for applicable periods of RDS eligibility. We also reviewed the
RDS secure Web site users associated with Pennsylvania’s application for plan year 2006. We
did not determine the allowability of the drug costs reported.

Our objectives did not require an understanding or assessment of Pennsylvania’s complete
internal control system. We limited our review of internal controls to obtaining an understanding
of Pennsylvania’s process for monitoring and updating its retiree files and coordinating with its
outside vendor to ensure that costs claimed for subsidy payments represent costs for qualifying
covered retirees.

We performed our field work at Pennsylvania’s administrative offices in Harrisburg,
Pennsylvania and at their vendor’s offices in Franklin Lakes, New Jersey from June 2008
through January 2009.




                                              3

Methodology

To accomplish our objectives, we:

   •	 reviewed applicable Federal laws and regulations, Medicare program guidance, and the
      American Academy of Actuaries’ guidance;

   •	 met with Pennsylvania’s actuary and reviewed his working papers to verify that the
      actuary had completed and submitted the attestation in accordance with CMS and
      American Academy of Actuaries’ guidance;

   •	 reviewed Pennsylvania’s notice of creditable coverage sent to Medicare Part D eligible
      retirees for the period beginning January 1, 2006;

   •	 reviewed Pennsylvania’s 2006 plan year RDS application to determine whether the
      information provided was complete, accurate, and submitted to CMS by the October 31,
      2005, deadline and to verify that CMS had approved the application;

   •	 selected a judgmental sample of 50 plan year 2006 retirees for whom Pennsylvania
      reported costs and received subsidy payments;

   •	 reviewed information from the Medicare Beneficiary Database to determine whether the
      sampled retirees were eligible for Medicare Part D and not enrolled in a Part D
      prescription drug plan;

   •	 reviewed documentation provided by Pennsylvania to determine whether the sampled
      retirees met Pennsylvania’s criteria for retiree health coverage and were enrolled in a
      retiree health plan approved for the RDS;

   •	 met with Pennsylvania and vendor personnel responsible for the RDS process to obtain
      an understanding of the application process and their procedures for submitting retiree
      files to CMS and processing retiree response and notification files received from CMS;

   •	 reviewed the reconciled cost report for plan year 2006 submitted by Pennsylvania’s
      vendor to determine the total gross drug costs submitted and the total subsidy payments
      received by Pennsylvania;

   •	 reviewed the contract between PEBTF and its outside vendor;

   •	 reviewed detailed drug costs supporting the plan year 2006 final cost report to determine
      whether Pennsylvania correctly reported gross retiree costs within each qualifying
      covered retirees valid subsidy period; and

                                             4

   •	 identified Pennsylvania’s secure Web site users for the plan year 2006 application and
      determined whether the users were assigned and registered in accordance with program
      policies.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                           FINDINGS AND RECOMMENDATION

Pennsylvania’s REHP met the requirements to be considered a qualified retiree prescription drug
plan and Pennsylvania established controls to ensure that drug costs were correctly reported.

However, Pennsylvania did not establish adequate administrative safeguards over retiree data.
Specifically, Pennsylvania did not terminate a former employee’s access to RDS information.
As a result, the confidentiality, integrity, and availability of electronic protected health
information could be diminished. Pennsylvania’s lack of administrative safeguards was due to a
lack of adequate internal controls over protected health information.

PLAN SPONSOR REQUIREMENTS

Federal Requirements

Pursuant to 42 CFR § 423.884, employment-based retiree health coverage is considered to be a
qualified retiree prescription drug plan if:

   •	 the plan provides CMS with an attestation that the actuarial value of the retiree
      prescription drug coverage under the plan is at least equal to the actuarial value of the
      defined standard prescription drug benefit under Part D and

   •	 Part D eligible individuals covered under the plan are provided with appropriate 

      notification regarding creditable drug coverage. 


Pursuant to 42 CFR § 423.884(c), the sponsor of a qualified retiree prescription drug plan must
submit an application for the retiree drug subsidy to CMS each year. The application must
include identifying information for the plan sponsor, an actuarial attestation, a list of qualifying
covered retirees and identifying information, and a sponsor agreement signed by an authorized
representative of the plan sponsor. For plan years ending in 2006, the application deadline was
October 31, 2005.

                                                5

Results of Review of Plan Sponsor Requirements

Pennsylvania’s REHP met the requirements to be considered a qualified retiree prescription drug
plan under the RDS program. Our review of Pennsylvania’s application shows that all
requirements were met on a timely basis and Pennsylvania was accepted by CMS as a sponsor of
a qualified retiree prescription drug plan eligible for subsidy payments.

SAFEGUARDING RETIREE DATA

Data Security Requirements

The plan sponsor agreement included with the RDS application requires sponsors to establish
and implement proper safeguards against unauthorized use and disclosure of the data exchanged
under the application. By signing the application, the plan sponsor certifies that its retiree group
health plans have established and implemented appropriate safeguards in compliance with the
Health Insurance Portability and Accountability Act (HIPAA) administrative simplification,
privacy, and security rule (45 CFR parts 160, 162, and 164) in order to prevent unauthorized
disclosure of such information or data. The sponsor also agrees that if it participates in the
administration of the plans, then it has also established and implemented the same safeguards in
compliance with the above HIPAA citations.

45 CFR § 164.308(a)(3)(ii)(C) requires that covered entities implement procedures terminating
access to electronic protected health information when the employment of a workforce member
ends.

Results of Review of Administrative Safeguards over Retiree Data

Pennsylvania had not established adequate administrative safeguards over the electronic
protected health information on the RDS secure Web site. Our review of secure Web site users
associated with Pennsylvania’s application found that the Authorized Representative for the
2006 and 2007 plan years had terminated employment but Pennsylvania had not revoked access
to the secure Web site when that individual left. For the 2-month period after leaving
employment with Pennsylvania, this individual still had access to the RDS secure web site,
which contains confidential retiree information. This lack of administrative safeguards was due
to a lack of adequate internal controls over protected health information.

Effect on Electronic Protected Health Information

Individuals who have access to sensitive retiree information and are no longer employed by
Pennsylvania diminish the confidentiality, integrity, and availability of electronic protected
health information. Accordingly, during the period of our fieldwork, Pennsylvania drafted a
succession plan to ensure that terminated employees would no longer have access to the RDS
secure Web site.
                                               6

RECOMMENDATION

We recommend that Pennsylvania follow the regulations to ensure that only eligible employees
have access to the RDS secure Web site.

COMMONWEALTH OF PENNSYLVANIA COMMENTS

In its comments on our draft report, Pennsylvania concurred with our recommendation and
outlined the steps it had taken to implement our recommendation. Pennsylvania’s comments are
included in their entirety as the Appendix.




                                            7

APPENDIX 

                                                                                                         APPENDIX 





~ ~~~~~~~~~S~RiA~ION
           HUMAN RESOURCES AND MANAGEMENT
                                                                lD)~ © I§ O\fl§             [t
                                                               1m!      MAY 2 1 2009         llJJ
May 18, 2009

Stephen Vlrbitsky
Regional Inspector General
 For Audit Services
Office of Inspector General
Office of Audit Services - Region III
Public Ledger Building, Suite 316
150 S. Independent Mall West
Philadelphia, Pennsylvania 19106-3499

Dear Mr. Virbitsky:

The commonwealth has received and reviewed the Office of Inspector General's draft report
A-03-08-00013 entitled "Review of Retiree Drug Subsidy Plan Sponsor Commonwealth of
Pennsylvania for Plan Year Ended December 31, 2006." The commonwealth appreciates the
opportunity to provide comments on the draft report before the final report is issued.

We concur with the Office of Inspector General's (OIG) recommendation that Pennsylvania
follow the regulations to ensure that only eligible employees have access to the RDS Secure
Website. As noted by OIG in the report, as soon as the OIG identified this error, the
commonwealth developed and implemented proper internal controls, as well as a succession
strategy to ensure that only eligible employees have access to the RDS Secure Website.

The commonwealth also would like to acknowledge that throughout the audit process, the
auditors were professional, courteous, and patient in learning the intricacies of our program
and our relationships with various parties. It was a pleasure working with your staff.

If you need any additional information or assistance, please contact Mrs. Tara K. Long at
(717) 787-9872.


Sincerely,

_.     -     ;;?~

James A. Honchar, SPHR
Deputy Secretary


cc: Secretary Naomi Wyatt




 Office of Administration   I 517 Finance Building, Harrisburg, PA 17120 I 717.787.8191 I www.oa.state.pa.us
